 Report No. D-2009-044           January 23, 2009




Defense Finance and Accounting Service Indianapolis
    Compilation of Other Defense Organizations
            General Fund Financial Data
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ADCFO                 Acting Deputy Chief Financial Officer
CFO                   Chief Financial Officer
CLRS                  CFO Load Reconciliation System
DDRS                  Defense Departmental Reporting System
DFAS                  Defense Finance and Accounting Service
DoD FMR               DoD Financial Management Regulation
FASAB                 Federal Accounting Standards Advisory Board
FASB                  Financial Accounting Standards Board
GAAP                  Generally Accepted Accounting Principles
JV                    Journal Voucher
ODO                   Other Defense Organizations
OIG                   Office of the Inspector General
USD(C)/CFO            Under Secretary of Defense (Comptroller)/
                       Chief Financial Officer
USSGL                 U.S. Government Standard General Ledger
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704



                                                                     January 23,2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Report on Defense Finance and Accounting Service Indianapolis
         Compilation of Other Defense Organizations General Fund Financial Data
         (Report No. D-2009-044)


      We are providing this report for review and comment. We considered
management comments on a draft ofthis report when preparing the final report.

         DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We request that the Under Secretary of Defense (Comptroller)/ChiefFinancial Officer
and the Director, Defense Finance and Accounting Service Indianapolis provide
additional comments on Recommendations I and 2. We request additional comments on
all of the recommendations by February 23,2009.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AUDDBO@dodig.mil. Copies of management comments must
contain the actual signature of the authorizing official. We cannot accept the I Signed I
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to our staff. Please direct questions to me
at (703) 601-5868 (DSN 664-5868).



                                 Patricia A. Marsh, CPA
                               Assistant Inspector General
                               Defense Business Operations
                Department of Defense Office of Inspector General
Report No. D-2009-044                                                   January 23, 2009
   (Project No. D2007-D000FL-0195.000)

    Defense Finance and Accounting Service Indianapolis Compilation of
        Other Defense Organizations General Fund Financial Data
                                 Executive Summary

Who Should Read This Report and Why? Personnel at Defense Finance and
Accounting Service and other DoD accounting offices supporting the Other Defense
Organizations general fund, and preparers and users of the DoD Agency-Wide financial
statements would benefit from the results of this audit.

Background. Defense Finance and Accounting Service Indianapolis provides
accounting and financial reporting support for 42 Other Defense Organizations general
funds. The Defense Finance and Accounting Service Indianapolis receives trial balance
information from field accounting sites, which is used to prepare financial statements and
budget reports. These 42 Other Defense Organizations general funds were a reporting
component of the FY 2007 DoD Agency-Wide Financial Statements and had
$140.5 billion in budget authority for FY 2007.

Results. Defense Finance and Accounting Service Indianapolis internal controls were
not adequate. We identified a material internal control weakness in accounting
adjustments made to Other Defense Organizations general fund accounting records. The
accounting adjustments were not sufficiently supported and approved. Specifically, the
controls did not ensure that:

       •   accounting adjustments were properly supported,

       •   journal entries recorded in the accounting system agreed with the control log,
           and

       •   cost estimates used on journal vouchers were supported and properly
           classified and disclosed on the financial statements.

These internal control weaknesses increased the risk that DoD materially misstated
balances reported in the DoD Agency-Wide financial statements. In addition, the lack of
footnote disclosures discussed in this report could mislead the users of the financial
statements.

The Under Secretary of Defense (Comptroller)/Chief Financial Officer should update the
DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” to include
requirements for financial statement footnote disclosures of the amounts of unresolved
abnormal balances, as agreed to in DoD IG Report No. D2004-118, “Army General Fund
Controls Over Abnormal Balances for Field Accounting Activities,” September 28, 2004.
In addition, he should make footnote disclosures on the DoD Agency-Wide financial
statements to explain the methodology used to estimate contingent liabilities for future
contract-financing payments.
The Director, Defense Finance and Accounting Service Indianapolis should:

   •   implement procedures to ensure that all Other Defense Organization journal
       vouchers are supported and reviewed by officials with the appropriate level of
       authority,

   •   implement procedures for Departmental Accounting supervisory review of the
       journal voucher control log,

   •   discontinue the delegation of authority for journal voucher review and approval to
       lower-level managers and supervisors, and

   •   make footnote disclosures on the DoD Agency-Wide financial statements to
       explain estimates used to adjust abnormal balances.

Management Comments and Audit Response. The Acting Deputy Chief Financial
Officer concurred with the recommendation to update the DoD Regulation 7000 14-R to
disclose abnormal balances but did not provide an implementation date. The Acting
Deputy Chief Financial Officer nonconcurred with the recommendation to disclose the
methodology DoD used for estimating contingent liabilities in the footnotes. We request
that the Acting Deputy Chief Financial Officer reconsider his position on the footnote
disclosures.

The Acting Deputy Chief Financial Officer agreed with the recommendation to improve
procedures for supporting and reviewing journal vouchers; however, the Director,
Defense Finance and Accounting Service Indianapolis nonconcurred, stating that the
adjustments were adequately supported. As stated in the finding, there were unsupported
adjustments, so we request the Director, Defense Finance and Accounting Service
Indianapolis reconsider his position. Both the Acting Deputy Chief Financial Officer and
the Director, Defense Finance and Accounting Service Indianapolis concurred with
recommendation to have supervisory reviews of the journal voucher log but the Director,
Defense Finance and Accounting Service Indianapolis needs to provide an
implementation date. In addition, both the Acting Deputy Chief Financial Officer and the
Director, Defense Finance and Accounting Service Indianapolis nonconcurred with the
recommendation to discontinue delegating journal voucher approval authority.
Because the delegation of authority weakens the internal control, we request that the
Acting Deputy Chief Financial Officer and the Director reconsider their positions. Also,
the Acting Deputy Chief Financial Officer and the Director, Defense Finance and
Accounting Service Indianapolis nonconcurred with the recommendation to disclose the
method of estimating amounts to adjust abnormal balances. Because the disclosure for
adjusting abnormal balances is important information, we request that the Acting Deputy
Chief Financial Officer and the Director, Defense Finance and Accounting Service
Indianapolis reconsider their positions.

We request that the Under Secretary of Defense (Comptroller)/Chief Financial Officer
and the Director of the Defense Finance and Accounting Service Indianapolis provide
comments on the final report by February 23, 2009. See the findings section of the report
for a discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     3

Finding
     Accounting Adjustments and Estimates                                      4


Appendixes
     A. Scope and Methodology                                                 21
         Review of Internal Controls
     B. Prior Audit Coverage                                                  23
     C. Other Defense Organizations                                           24
     D. Report Distribution                                                   25


Management Comments
     Office of the Under Secretary of Defense (Comptroller)/Chief Financial
        Officer                                                               27
     Defense Finance and Accounting Service Indianapolis                      32
Background
    Other Defense Organizations (ODO) are Defense agencies, offices, programs,
    commands, defense funds, and trust funds that are funded with Treasury Index 97
    funds (also referred to as Department 97). The consolidated ODO financial
    statements are classified as either “general fund” or “working capital fund.” The
    Office of Management and Budget does not require DoD to prepare separate
    audited financial statements for the consolidated ODO general and working
    capital funds. However, ODO general and working capital funds represent 2 of
    the 11 consolidated entities in the DoD Agency-Wide financial statements.
    Consistent with the FY 2002 National Defense Authorization Act (Public Law
    107-107), DoD requires 11 of the 42 ODO general fund activities’ accountants to
    prepare financial statements. This report addresses the compilation of the 42
    activities’ financial data that combine to form the ODO general fund balances
    reported in the DoD Agency-Wide financial statements. The 42 ODOs had a
    combined total of $140.5 billion in budget authority in FY 2007.

    Defense Finance and Accounting Service. As of May 2007, Defense Finance
    and Accounting Service (DFAS) Indianapolis (referred to as DFAS Indianapolis)
    was responsible for compiling financial data for 42 ODO trial balances submitted
    by field accounting sites for budget execution reports and financial statements.
    Appendix C lists the ODOs that submit the trial balances DFAS Indianapolis
    compiles. Field accounting sites are responsible for recording, processing,
    summarizing, verifying, and reporting accounting transactions and then
    submitting general ledger trial balance information to DFAS Indianapolis on a
    monthly basis. The field accounting sites provide trial balances in both DoD
    Standard General Ledger and the U.S. Government Standard General Ledger
    (USSGL) formats.

    Compilation Process for ODO General Fund Financial Data. The ODO trial
    balance financial data is compiled, adjusted, and reported in the DoD Agency-
    Wide financial statements. DFAS Indianapolis uploads electronic trial balances
    from ODOs into the Chief Financial Officer Load and Reconciliation System
    (CLRS). CLRS compiles data into a USSGL-compliant database for final
    processing by the Defense Departmental Reporting System (DDRS)-Audited
    Financial Statements subsystem. DFAS Indianapolis personnel prepare and
    record journal vouchers (JVs) to establish beginning balances, correct prior-
    period errors, estimate intragovernmental balances with trading partners, and
    adjust proprietary accounts to reconcile with budgetary accounts.
    The ODO compilation process uses the USSGL account structure. The USSGL
    account structure provides a self-balancing set of budgetary accounts to record the
    appropriation, apportionment, allocation, commitment, obligation, and expenditure
    process. Proprietary asset and liability accounts cover the receipt of funds in the
    Treasury, the proper classification of assets (such as receivables, prepayment,
    inventory, and fixed assets), and the recognition and proper classification of
    liabilities. Revenue and expense accounts measure the realization of revenues
    from the sale of goods and services, and the recognition of costs through the use




                                         1
and consumption of assets. The financial control provided through accounting
records for property provides managers with a tool that helps them effectively
perform their stewardship functions.

The Centralized Trial-Balance System (FACTS II) is a computer program that
allows agencies to submit accounting data. The data include mostly budgetary
information that is required for the Report on Budget Execution and Budgetary
Resources Standard Form 133 (SF 133) and the Year-End Closing Statement.
The SF 133 ties an agency’s financial statements to its budget execution. Figure
1 provides an overview of the ODO compilation process:




     Standard Form                       FACTS II
     133 on Budget                      Trial Balance
       Execution




                                                          Defense
                         Chief Financial                Departmental
                         Officer Load and                Reporting
                          Reconciliation                  System




         Proprietary           Proprietary to                ODO
        to Budgetary            Budgetary                  Financial
        Adjustments            Reconciliation             Statements


                       Figure 1. ODO Compilation Process

Defense Departmental Reporting System. DDRS provides tools for DoD
accountants to produce audited financial statements, unaudited interim financial
statements, and budgetary reports. DFAS Indianapolis uses the DDRS-Audited
Financial Statements module to report compiled ODO general fund financial data
in the DoD Agency-Wide financial statements. The DDRS-Audited Financial
Statements module produces the DoD Agency-Wide balance sheet, statement of
changes in net position, statement of net cost, statement of budgetary resources,
and the statement of custodial activities. It also produces the interim and annual
financial statement report footnotes, management reports, required supplementary
information, and reconciliation reports.


                                    2
Objectives
    Our overall audit objective was to evaluate the processes used by DFAS
    Indianapolis for compiling and adjusting financial data for ODO general funds.
    We reviewed internal controls related to the audit objective. Appendix A
    contains a discussion of the audit scope and methodology and the review of
    internal controls. Appendix B shows prior audit coverage related to the audit
    objectives.




                                        3
            Accounting Adjustments and Estimates
            The Defense Finance and Accounting Service (DFAS) Indianapolis did
            not implement an effective system of internal controls to ensure that
            accounting adjustments made to Other Defense Organization (ODO)
            general fund accounting records were sufficiently supported, approved,
            and reported. Specifically, the controls were insufficient for ensuring that:

                   • accounting adjustments were sufficiently supported and
                     approved,

                   • journal entries recorded in Chief Financial Officer Load and
                     Reconciliation System (CLRS) agreed with the journal voucher
                     (JV) control log, and

                   • cost-estimate methods used on JVs were compliant with
                     applicable standards and adequately disclosed on the financial
                     statements.

            This occurred because of DoD personnel’s:

                   • noncompliance with Federal accounting standards and DoD
                     Financial Management Regulations,

                   • lack of supervisory oversight of the JV control log, and

                   • ineffective accounting adjustment review and approval
                     processes.

            These internal control weaknesses increased the risk that balances
            reported in the DoD Agency-Wide financial statements were materially
            misstated. In addition, the lack of adequate financial statement note
            disclosures on the basis of the amounts presented could mislead the users
            of the financial statements.

Criteria
     The DoD Regulation 7000.14-R, “DoD Financial Management Regulation,”
     (DoD FMR) and Accounting Principles Generally Accepted in the United States
     (GAAP) for Federal reporting entities should be used to compile the DoD
     financial statements. GAAP is the highest-authority accounting guidance. The
     DoD FMR should implement GAAP. In financial statement audits, the auditors
     must obtain written representations from management affirming that it has or has
     not followed GAAP in preparing the financial statements.

     DoD Regulations. DoD FMR contains two chapters that provide detailed
     guidance for supporting and approving JV adjustments and reporting estimated
     amounts.



                                          4
                   Supporting and Approving Journal Vouchers. DoD FMR, volume 6A,
           chapter 2, prescribes JV-related supporting documentation and approval
           requirements. Proper documentation is necessary to support all JV entries. The
           documentation should allow approving officials and others, such as auditors, to
           understand clearly the reason for preparing a JV and to be able to tell whether it is
           proper and accurate. Reporting entity officials of varying ranks are responsible
           for approving JVs. The DoD FMR specifies approval thresholds and requires that
           all JVs for more than $1 billion be coordinated with the customer prior to
           processing. Table 1 shows the approval thresholds for the adjusting JVs.



                             Table 1. Journal Voucher Approval Thresholds

            Threshold        Dollar Amount                    Approving Official
                  1          Less than $100 million           Reporting Entity Branch Chief

                  2          $100-$500 million                Supervisory Reporting Entity
                                                              Branch Chief

                  3          More than $500 million-          Director for Accounting for the
                             $1 billion                       Reporting Entity

                  4          More than $1 billion             Director for the Reporting Entity



                  Adjustments to Intragovernmental Accounts. DoD FMR, volume 6B,
           chapter 13 prescribes requirements for making JV adjustments to
           intragovernmental accounts. It states that:
                    The Department shall not make adjustments based on level 1 data
                    received from its trading partners. 1 Currently, the Department’s level 1
                    trading partners are not capable of providing transaction data with
                    sufficient detail and documentation to support making an adjustment.

           Accounting Standards. The Federal Accounting Standards Advisory Board’s
           (FASAB) establishes Federal accounting standards. The Financial Accounting
           Standards Board (FASB) originates standards for financial accounting and
           reporting for business and nonbusiness organizations. Both organizations
           promulgate standards that are part of GAAP. The American Institute of Certified
           Public Accountants prescribes a hierarchy of accounting standards applicable to
           Federal Government financial reporting. FASAB accounting standards are at the
           top of the hierarchy, along with FASB-promulgated standards made applicable to
           Federal Governmental entities by a FASAB Statement or Interpretation. If not
           made applicable to Federal Government entities by a FASAB Statement or
           Interpretation, FASB-promulgated standards are at the bottom of the hierarchy,
           along with FASB Concept Statements and International Accounting Standards.
1
    Level 1 data is data received from non-DoD Federal trading partners.



                                                       5
           Federal accounting standards include guidance for supporting and reporting
           estimated JV amounts and making proper disclosures in the financial statement
           footnotes.

                   Statements of Federal Financial Accounting Concepts and Standards.
           According to the Statement of Federal Financial Accounting Concepts No. 1,
           “Objectives of Federal Financial Reporting,” September 2, 1993, nothing material
           should be omitted from the information necessary to faithfully represent the
           underlying events and conditions; nor should anything be included that would
           likely cause the information to be misleading to the intended report user.
           Statement of Federal Financial Accounting Concepts No. 2, “Entity and Display,”
           June 5, 1995, states that management is responsible for the accuracy and fairness
           of the information presented on the financial statements and that the associated
           note disclosures are necessary so that financial statement users understand the
           context of the reported information.
                   Statement of Federal Financial Accounting Standards No. 5, “Accounting
           for Liabilities of the Federal Government,” September 1995, provides guidance
           for the recognition or disclosure of contingent liabilities. Contingent liabilities
           are recognized or disclosed in connection with an existing condition, situation, or
           set of circumstances involving uncertainty as to possible gain or loss to an entity
           that will ultimately be resolved when one or more future events occur or fail to
           occur. Exchange transactions that arise from government-acknowledged events 2
           would be recognized when goods and services are provided. Therefore,
           government-acknowledged events do not meet the criteria necessary to be
           recognized as a contingent liability.

                   Statement of Financial Accounting Concept. Statement of Financial
           Accounting Concept No. 4, “Objectives of Financial Reporting by Nonbusiness
           Organizations,” December 1980, acknowledges that information provided by
           financial reporting often results from approximate, rather than exact measures.
           The measures commonly involve estimates, classifications, summarizations,
           judgments, and allocations. Financial reporting should include explanations and
           interpretations to help users understand financial information.
           Management Representations. American Institute of Certified Public
           Accountants Professional Standards, Auditing Section 333, June 1, 2006, states
           that the auditor obtains written representations from management to complement
           other auditing procedures. Written management representations relate to the
           propriety of the financial statements and should address matters such as:

                    •   acknowledgment of management’s responsibility for the fair
                        presentation of the financial statements;

                    •   availability of all financial records and related data;


2
    Statement of Federal Financial Accounting Standards No. 5, “Accounting for the Liabilities of the Federal
    Government,” states that Government-acknowledged events are events that are not a liability in
    themselves, but are those events that are “of financial consequence to the Federal Government because it
    chooses to respond to the event.”



                                                       6
                    •   plans or intentions that may affect the carrying value or classification
                        of assets or liabilities;

                    •   knowledge of significant estimates that are required to be disclosed;
                        and

                    •   violations or possible violations of laws or regulations, the effects of
                        which should be considered for disclosure in the financial statements.

Supporting Accounting Adjustments
           DFAS Indianapolis did not properly support and review all JV adjustments and
           disclose all cost estimates in the financial statements. The JV metric report is
           used by the Secretary of Defense (Comptroller)/Chief Financial Officer
           (USD[C]/CFO) to monitor DoD progress in reducing unsupported accounting
           adjustments. Of the 101 JVs for $43.4 billion reviewed, DFAS Indianapolis
           classified 5 JVs as unsupported and 96 as supported for the second quarter
           FY 2007 metric report submitted to the USD(C)/CFO. DFAS Indianapolis
           categorized the remaining 96 JVs as supported; however, we determined that
           15 of 101 (15 percent) totaling $77.7 million were unsupported.

           DFAS-Identified Unsupported Adjustments. Of the five JVs that DFAS
           identified as unsupported, DFAS staff recorded three JVs, totaling $2.7 billion,
           which lacked support for estimates used to adjust intragovernmental account
           balances. The JV descriptions indicated that the estimates were based on data
           calls with non-DoD (Level 1) trading partners. DFAS Indianapolis officials did
           not determine or document what portions of the amounts recorded were for non-
           DoD trading partners. The DoD Office of Inspector General (DoD OIG)
           previously reported that the design of internal controls did not provide reasonable
           assurance that trading partner data are supported by adequate documentation or
           valid estimating methodology. 3 The DFAS Indianapolis’s use of Level 1 data
           received from its non-DoD trading partners deviates from the stated DoD FMR
           prohibition:
                    The Department shall not make adjustments based on level 1 data
                    received from its trading partners. Currently, the Department’s level 1
                    trading partners are not capable of providing transaction data with
                    sufficient detail and documentation to support making an adjustment.

           Auditor-Identified Unsupported Adjustments. We determined that 15 of 101
           JVs totaling $77.8 million were unsupported. Two JVs were related to
           adjustments made to avoid abnormal balances, four JVs were to record the effects
           of contract financing payments, 4 and nine JVs had other documentation issues.

3
    DoD IG Report No. D-2006-008, “Report on Defense Departmental Reporting System and Related
    Financial Statement Compilation Process Controls Placed in Operation and Tests of Operating
    Effectiveness for the period October 1, 2004 through March 31, 2005,” October 24, 2005.
4
    Federal Acquisition Regulations define contract financing payments as authorized Government
    disbursements of monies to a contractor prior to acceptance of supplies or services by the Government.



                                                       7
                  Abnormal Balance Adjustments. Two JVs, with an absolute value
          totaling $8.7 million, were used to eliminate abnormal balances in Federal
          accounts. These two JVs moved amounts from Federal to non-Federal liability
          accounts so that, according to DFAS officials, abnormal balances would not be
          reported in Federal accounts. The JVs and supporting documentation explained
          the nature of the adjustments and their impact, but did not justify the adjustments.
          DFAS Indianapolis should have reconciled the accounts and determined the
          causes for the abnormal balances. In a FY 2006 report, the DoD OIG reported
          that the processes used by DFAS Indianapolis to compile financial statements
          inherently masked or eliminated abnormal balances. 5 DFAS Indianapolis
          nonconcurred with the recommendation to establish and implement a process to
          identify abnormal balances in the financial data and to disclose the financial
          statement disposition of those anomalies.

                  Contract-Financing Payments. There were 4 JVs totaling $10.8 million
          that were recorded for estimated contingent liabilities and other assets. The JV
          contained the statement that it was recognizing “a contingent liability for the
          estimated future contract-financing payments that will be paid to the contractor
          upon delivery and Government acceptance of a satisfactory product.” However,
          there was not sufficient JV documentation to support the adjustments. The
          Department uses several different types of contract-financing payments, such as
          advances, performance-based payments, and progress payments based on cost.
          The JVs did not identify which types of contract-financing payments were made.
          If the payment type was an advance to the contractor, the four accounting
          adjustments should not have been made.

          DFAS Indianapolis personnel said that the four JVs were made for future contract
          financing payments based on the USD(C)/CFO quarterly guidance related to
          progress payments based on contract cost. If so, the four adjustments resulted in
          the misclassification of future contract financing payments as “contingent
          liabilities” instead of other liabilities because the progress payments are for
          exchange transactions, and their associated future contract financing payments do
          not measure potential loss. DFAS Indianapolis personnel said that they followed
          USD(C)/CFO quarterly guidance based on an accounting policy memorandum
          issued by the USD(C)/CFO titled, “Change in Financial Reporting Practices for
          Progress Payments Based on Cost,” December 7, 2006. However, the policy
          memorandum was not attached to the four JVs to explain why and how the
          estimate was determined, and DFAS Indianapolis personnel could not
          immediately locate it. Even after DFAS personnel found the policy memorandum
          and provided it to us, we questioned its applicability to the four JVs. The
          USD(C)/CFO policy did not comply with the Statement of Federal Financial
          Accounting Standards No. 5, “Accounting for Liabilities of the Federal
          Government,” September 1995.

                 Other Documentation Issues. DFAS Indianapolis incorrectly classified
          an additional nine JVs for $58.3 million as supported. According to the DoD
          FMR, adequate support for JVs is important to ensuring that JVs accurately
          record a financial event and that documentation for a detailed audit trail exists.

5
    DoD IG Report No. D-2006-092, “Controls over Abnormal Balances in Financial Data Supporting
    Financial Statements for Other Defense Organizations,” June 8, 2006.



                                                   8
    Two of the nine JVs, totaling $12.7 million, changed the attributes of the USSGL
    “undelivered orders – obligations, unpaid” account entries in order to force
    agreement between balances reported in the financial statements and those
    reported in the SF 133 Report on Budget Execution and Budgetary Resources.
    DFAS Indianapolis did not adequately reconcile the amounts on the financial
    statements and the SF 133 to determine the cause of the differences. Another
    four JVs, totaling $17.2 million, affecting the Imputed Financing Sources and
    Imputed Costs USSGL, did not include adequate support or cited other JVs that
    had not been properly approved. The remaining three unsupported JVs were for:

           •   $10.2 million that was moved from Accounts Payable to Accrued
               Funded Payroll and Leave,

           •   $5.2 million that corrected another JV affecting Other Assets, and

           •   $13 million that affected Other Losses and Accounts Payable.

Journal Voucher Logs
    There were 13 discrepancies between the JV log sheets and the JV adjustments in
    CLRS. The JV log sheets are an internal control over the compilation process
    designed to ensure that all JVs are properly recorded and provide the JV dollar
    amounts to management to use in making review and approval assignments based
    on established DoD FMR threshold amounts.

    Recorded Journal Vouchers. We found five JVs that were recorded in the log
    but not recorded in the accounting records. A DFAS Indianapolis official said
    that the staff accountants failed to mark these “void” in the log at the time they
    were voided. An additional two JVs were recorded, then voided in the log, yet
    were recorded in the accounting records. The same DFAS Indianapolis official
    said these two JVs were incorrectly marked “void” in the JV log. He further
    stated that DFAS staff accountants systematically create “prep journal vouchers”
    to be:
            . . . better prepared to process their JVs once we get the quarterly data
           or quarterly trial balances and data call information. In the event, the
           accountant forgets or erroneously inputs another journal voucher for
           the same reason (forgetting the prep journal voucher was prepared),
           they must cancel one of the journal vouchers to eliminate any
           duplication.

    Differences Between JV Log and Documents. There were six JV log entries
    that did not agree with the JV documentation. The differences ranged from
    $5,000 to $4.3 million, as shown in Table 2.




                                               9
          Table 2. Comparison of Amounts on the JV Log
                     and JV Documents ($000)

           Item                               JV
            No.           JV Log           Document          Difference

               1.          $64,518            $64,513           $      5

               2.           19,810             19,830                (20)

               3.               91                272               (181)

               4.                 0               257               (257)

               5.            3,200              6,400           (3,200)

               6.            8,600              4,300             4,300


    DFAS Indianapolis officials stated that amounts recorded in the JV log were
    inaccurate; however, there was no evidence that the JV log had been reviewed by
    supervisory personnel. Differences between the JV log and the accounting
    records bring into question the accuracy and completeness of the financial data.
    In addition, these types of errors have the potential to adversely affect the current
    JV review and approval procedures because JV review assignments are based on
    the dollar amounts shown in the CLRS JV Log in relation to the thresholds shown
    in Table 1.

Journal Voucher Review and Approvals
    DFAS Indianapolis did not properly approve 24 JVs of the 101 we reviewed. The
    24 JVs, which totaled more than $37 billion, had the following problems.

           •    DFAS Indianapolis did not coordinate five JVs, valued in excess of
                $1 billion each, with reporting entity customers. In addition, DFAS
                officials did not review and approve the JVs until after they were
                recorded and the financial statements were prepared.

           •    Eighteen JVs totaling more than $88 million were approved by a
                DFAS Indianapolis Team Leader, a rank below the lowest prescribed
                by the DoD FMR.

           •    One JV for more than $3 million was not approved at all.

    Coordination of JV Reviews. DFAS Indianapolis officials approved five JVs
    valued at more than $1 billion each, but did not coordinate the approvals with


                                         10
           reporting entity officials or customers, as required by the DoD FMR. 6 DFAS
           serves as an accounting service organization and should not assume ODO
           reporting entity management responsibilities for assertions in the financial
           statements by approving JVs. For ODO reporting entities issuing separate
           financial statements, DFAS Indianapolis officials should coordinate with the
           reporting entity officials who would make formal representations to independent
           auditors in connection with audits of annual financial statements. Statement of
           Federal Financial Accounting Concepts No. 2, “Entity and Display,” May 1980,
           states that:

                     . . . reporting entities are entities that issue general-purpose financial
                    statements to communicate financial and related information about the
                    entity. For an entity to be a reporting entity it would need to meet all
                    of the following criteria: (i) there is a management responsible for
                    controlling and deploying resources, producing outputs and outcomes,
                    executing the budget or a portion thereof, and held accountable for the
                    entity’s performance; (ii) the entity’s scope is such that its financial
                    statements would provide a meaningful representation of operations
                    and financial conditions; and (iii) there are likely to be users of the
                    financial statements who are interested in and could use the
                    information in the statements to help them make resource allocation
                    and other decisions and hold the entity accountable for its deployment
                    and use of resources.

           For ODO activities that do not issue separate financial statements, DFAS
           Indianapolis officials should coordinate with USD(C)/CFO officials who make
           formal representations to independent auditors. The nonissuer ODO activity
           financial reporting information is included in the DoD Agency-Wide financial
           statements.

           Timing of JV Reviews. The DFAS Indianapolis Deputy Director’s review and
           approval of the five JVs for more than $1 billion each occurred after the
           adjustments had been recorded and the financial statements prepared. Reviewing
           and approving JVs after recording them defeated the approval process internal
           control purpose, consequently reducing the likelihood that errors or omissions
           were detected and corrected in a timely manner.

           JV Approval Delegations. A DFAS Indianapolis official holding a rank below
           the minimum required by the DoD FMR reviewed and approved 18 JVs totaling
           more than $88 million. In addition, DFAS Indianapolis delegated JV approval
           authority to employees more than one rank lower than those required by the
           DoD FMR. The DFAS Indianapolis Deputy Director issued a memorandum
           dated March 30, 2006, delegating authority to approve JV threshold amounts
           greater than $1 billion to the DFAS Indianapolis Branch Chief responsible for the
           ODO accounting. As noted in Table 1, Reporting Entity Branch Chiefs may only
           approve JVs for less than $100 million. The memorandum also stated that the


6
    The five JVs approved by DFAS Indianapolis officials but not coordinated with reporting entity officials
    affected the Defense Information Systems Agency, DoD Component-level accounts, and the Service
    Medical Activities of the Army, Navy, and Air Force.



                                                       11
           Director will review and certify all journal voucher adjustments made for the
           designated thresholds upon completion of each quarter’s financial statements.

           On March 29, 2006, the DFAS Indianapolis Director of Accounting Operations
           issued a memorandum delegating authority to approve journal vouchers threshold
           amounts greater than $500 million but less than $1 billion to the DFAS
           Indianapolis ODO General Fund Branch Chief. This memorandum also stated
           that the Director would review and certify all journal voucher adjustments made
           for the designated thresholds upon completion of each quarter’s financial
           statements. Contrary to statements found in both memorandums, we did not
           identify any after-the-fact Director approvals in connection with any of the JVs
           we reviewed.

           DFAS Indianapolis personnel did not provide requested documentation giving
           them the authority to delegate review and approval authority. The delegations
           circumvented the approval authority structure prescribed in the DoD FMR. This
           defeats the intended purpose of the DoD FMR, which is ensuring that only
           qualified employees approve high-dollar adjustments. The risk of material
           misstatements in the financial statements is increased by delegating review and
           approval authority to inappropriate levels of authority. 7

Financial Statement Disclosure
           DFAS Indianapolis did not properly disclose the problems with abnormal
           balances in the ODO accounts and the methods used to estimate amounts for
           adjusting entries in the footnotes of the financial statements.

           Abnormal Balances. DFAS Indianapolis did not properly disclose the abnormal
           balances because such disclosure is not a DoD FMR requirement. DoD IG
           Report No. D2004-118, “Army General Fund Controls Over Abnormal Balances
           for Field Accounting Activities,” September 28, 2004, previously reported that
           DFAS Indianapolis did not effectively detect and report abnormal balances in the
           Army General Fund accounting records. The first quarter FY 2004 trial balance
           data for the Army General Fund included $884.4 billion of unresolved abnormal
           account balances. Neither the Army general fund nor the DoD Agency-Wide
           financial statements disclosed the unresolved abnormal balances. As a result, the
           footnote disclosures in the financial statements were inaccurate and misleading.

           The DoD OIG recommended that the USD(C)/CFO revise the DoD FMR to
           require financial statement footnote disclosures of the amounts of unresolved
           abnormal balances. The Deputy Chief Financial Officer of DoD concurred with
           the recommendation and stated that her office will update the DoD FMR to
           require the disclosure of unresolved abnormal balances for all proprietary and
           budgetary accounts in the footnotes to the financial statements.



7
    American Institute of Certified Public Accountants Professional Standards as of June 1, 2006; Auditing
    Section 316, “Consideration of Fraud in a Financial Statement Audit,” and Auditing Section 342,
    “Auditing Accounting Estimates.”



                                                      12
           The Assistant Secretary of the Army (Financial Management and Comptroller)
           and the then Director of DFAS Accounting Services–Army (Indianapolis) agreed
           to work together to improve the reporting and correcting of abnormal balances.
           The Director also stated that researching abnormal balances would be
           implemented as part of the DDRS-Budgetary Module to detect and correct all
           abnormal balances, which is part of the Business Enterprise Information Services.
           However, until the Business Enterprise Information Services is being used by
           DFAS Indianapolis to compile the financial statements and management reports,
           the magnitude of abnormal balances should be reported in the footnotes.

           Accounting Estimates. DFAS Indianapolis did not disclose the methodologies
           used to estimate liabilities for future contract-financing payments in the financial
           statement footnotes, as specified by Statement of Financial Accounting Concept
           No. 4. The USD(C)/CFO accounting policy change for estimating contingent
           liabilities for future contract-financing payments was applied for the first time for
           the FY 2006 DoD Agency-Wide Financial Statements. DFAS Indianapolis
           should disclose and explain the policy change in future financial statements with
           reference to the FY 2006 implementation date. Accounting standards prescribe
           that a change in accounting policy should be made only if required by a standard
           or an interpretation or if the change results in the financial statements providing
           reliable and more relevant information on the effects of transactions, events, or
           conditions. Neither criterion was met in respect to implementation of the
           USD(C)/CFO accounting policy on estimating contingent liabilities. DFAS
           Indianapolis should account for changes in accounting policy retrospectively or
           include disclosures in the financial statements explaining why retrospective
           application is not practicable. The disclosure should include the period of change
           addressed by the policy memorandum.

           Without such disclosures, financial statement users may be misled into believing
           that amounts reported were based on actual transactions, rather than estimates, or
           that the estimates were compliant with the DoD FMR and GAAP.

Conclusion
           Maintaining effective internal controls over the preparation and recording of
           accounting adjustments has been a long-standing problem at DFAS Indianapolis
           resulting in increased internal control risk. The American Institute of Certified
           Public Accountants defines internal control risk as the risk that a material
           misstatement that could occur in an assertion will not be prevented or detected in
           a timely manner by the entity’s internal control. The risk is a function of the
           effectiveness of the design and operation of internal control in achieving the
           entity’s objectives for preparing the entity’s financial statements. 8 The internal
           control weaknesses discussed in this report increased the risk that ODO general
           fund balances reported in the DoD Agency-Wide financial statements were
           materially misstated.



8
    American Institute of Certified Public Accountants Professional Standards as of June 1, 2006, Auditing
    Section 312, “Audit Risk and Materiality in Conducting an Audit.”



                                                      13
           DoD Agency-Wide Financial Statements. The amounts of potential
           misstatements or uncertainties in the financial statements are material. For
           FY 2007, DFAS Indianapolis made $172 billion in unsupported JV adjustments.

                    •   Four JVs totaling $74 billion were not recorded in accordance with
                        GAAP.

                    •   Thirteen JVs totaling $98 billion were not properly supported.

           Management Representations. Entity officials’ written management
           representations provided to auditors could be compromised by not having
           reviewed and approved journalized adjustments. DFAS Indianapolis should
           coordinate approvals with reporting entity officials, who are its customers.

           By not reviewing JVs prior to the financial statement submission deadlines,
           DFAS Indianapolis could process erroneous JVs that can only be corrected at the
           request of the USD(C)/CFO. 9 Prior to the submission deadlines, DFAS
           Indianapolis can process adjustments into the accounting systems without
           approval from the USD(C)/CFO. After these deadlines, only adjustments
           requested by the USD(C)/CFO can be processed in DDRS. By reviewing
           adjusting JVs after the submission deadlines, DFAS Indianapolis may
           unnecessarily complicate the process. If the reviewer determines that an adjusting
           JV is incorrect, any correcting JVs would need to be coordinated with
           USD(C)/CFO. Also, any corrections made after these dates would result in
           changes to the financial statements. By reviewing the adjusting JVs before the
           submission deadlines, DFAS Indianapolis can process corrections without
           USD(C)/CFO coordination and avoid additional reviews and reconfirmations.

Other Matters of Interest
           During audit fieldwork, we determined that the DoD FMR did not contain an
           accurate and complete list of ODO appropriations. This occurred because
           Appendix A in DoD FMR, volume 6B had not been updated since
           November 2001. As a result, the Appendix contained inaccurate information and
           did not include appropriations enacted within the last several years. However, in
           September 2007, Appendix A was removed from the DoD FMR with an
           explanation that the U.S. Treasury Department maintains information on
           appropriations. This will eliminate the need to continually update information
           contained in the DoD FMR that has already been updated by the U.S. Treasury
           Department.




9
    American Institute of Certified Public Accountants as of June 1, 2006, Auditing Section 312.06 states:
    “…errors may involve unreasonable accounting estimates arising from oversight or misinterpretation of
    facts…and mistakes in the application of accounting principles relating to amount, classification, manner
    of presentation, or disclosure.”



                                                      14
Management Comments on the Finding and Audit Response
    We received comments on the report finding from the Acting Deputy Chief
    Financial Officer who responded for the Under Secretary of Defense (C)/CFO.
    The Acting Deputy Chief Financial Officer (ADCFO) provided recommendations

    for changes to the report narrative. The full text of his comments is contained in
    the management comments section of the report. We summarized the comments
    and audit responses.

    Management Comment. The ADCFO stated that the references to the
    $884.4 billion in the FY 2004 Army General Fund trial balance were misleading.
    In addition, he recommended deleting the entire Financial Statement Disclosure
    section.
    Audit Response. The reference in the report was a factual statement to show that
    the problem is material to the DoD Agency-Wide financial statements. The
    FY 2007 Army General Fund trial balance contained more than $1 trillion in
    abnormal balances. We are not deleting the statements related to the Army
    general funds or those in the Financial Statement Disclosure section because they
    are true statements.

    Management Comment. The ADCFO stated that the reference to the U.S.
    Government Standard General Ledger should be revised to U.S. Standard General
    Ledger.

    Audit Response. We revised the report.

    Management Comment. The ADCFO stated that the third bullet on page 4
    should be revised to read: “cost-estimate used on JVs were not adequately
    disclosed on the financial statements.”

    Audit Response. We are not changing the third bullet on page 4 because we
    believe it is accurate.

    Management Comment. The ADCFO recommended deleting the last sentence
    of the paragraph discussing the prohibition from using Level 1 partner data and
    the DoD FMR citation. He also stated that DoD Components have been
    instructed to use Level 1 partner data to develop estimates in separate guidance.

    Audit Response. Because the USD(C)/CFO has not changed the DoD FMR, the
    policy was still in effect. Regardless, the adjustment is a forced entry, and we
    consider it unsupported, like the Level 2 and Level 3 adjustments.

    Management Comment. The ADCFO recommended that, on page 8, the
    parenthetical comment “(absolute value of debits and credits)” be added after the
    $8.7 million, for clarity. In addition, he recommended deleting the comment “ . . .
    so abnormal balances would not be reported” from the report.




                                        15
    Audit Response. We did not make the recommended changes because they
    would make the report statements inaccurate. The $8.7 million is only one side of
    the journal entry.

    Management Comment. The ADCFO recommended deleting the last sentence
    in the first paragraph on page 8 in the Contract Financing Payments section that

    reads: “If the type was an advance to the contractor, the four accounting
    adjustments should not have been made.” In addition, he recommended deleting
    the second paragraph in its entirety.

    Audit Response. We did not make the recommended changes because the
    statements are accurate.

    Management Comment. The ADCFO recommended deleting the last paragraph
    under JV Approval Delegations on page 12. He explained that the OUSD(C) has
    approved delegations of JV approvals authority provided the JVs are properly
    approved within 10 days of completion of the financial reports.

    Audit Response. We did not make the recommended change because the
    statements are accurate.

Recommendations, Management Comments, and Audit
  Response
    Renumbered and Redirected Recommendations. The Director, DFAS
    Indianapolis stated that, beginning in FY 2007, the USD(C)/CFO granted the
    ODO Audited Financial Statements Branch a waiver from preparing consolidated
    footnotes 6 and 15, where the disclosure on the methodology used to estimate
    contingent liabilities would appear. As a result, we redirected Recommendation
    2.d. to the USD(C)/CFO. We renumbered Recommendation 2.d. to 1.b. Former
    Recommendation 1 is now 1.a., and Recommendation 2.e. is now 2.d.

    1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
       Financial Officer:

            a. Update the DoD Regulation 7000.14-R, “DoD Financial
    Management Regulation,” to require financial statement footnote disclosure
    of the amounts of unresolved abnormal balances, as agreed to in DoD IG
    Report No. D2004-118, “Army General Fund Controls Over Abnormal
    Balances for Field Accounting Activities,” September 28, 2004.

    Management Comments. The ADCFO partially concurred. He stated that the
    DoD FMR was previously updated to require the appropriate disclosure of
    abnormal balances. The DoD FMR will be further modified to require the
    disclosures for abnormal balances in the consolidated DDRS trial balance even
    when not apparent in the financial statements and footnotes.




                                       16
Audit Response. Comments from the ADCFO are partially responsive. We
request that the USD(C)/CFO provide a completion date for the DoD FMR
modification in response to the final report.

       b. Make footnote disclosures on the DoD Agency-Wide financial
statements to explain the methodology used to estimate contingent liabilities
for future contract-financing payments.

Management Comments. The ADCFO nonconcurred. He stated that the
current procedures and disclosures were negotiated with the DoD OIG based on
Report No. D-2005-062, “Report on Recording and Accounting for DoD Contract
Financing Payments,” May 10, 2005. He further stated that the agreement was
reached with DoD OIG personnel in August 2006.

Audit Response. Comments from the ADCFO are nonresponsive. We found no
evidence that the USD(C)/CFO reached an agreement with DoD OIG personnel
concerning a footnote disclosure explaining the methodology used to estimate
contingent liabilities for future contract-financing payments. The DoD
accounting policy on reporting contingent liabilities discussed in this report
indicates that the amounts reported are based on accounting estimates and
explains the estimation methodology to be applied. The American Institute of
Certified Public Accountants Professional Standards requires that financial
statements properly disclose accounting estimates. These standards state that the
presentation of financial statements in conformity with GAAP includes adequate
disclosures of material matters, such as the basis of the amounts presented in the
financial statements. We request that the ADCFO reconsider his position and
provide additional comments in response to the final report.

2. We recommend that the Director, Defense Finance and Accounting
Service Indianapolis Operations:

       a. Implement procedures to ensure that all Other Defense
Organization journal vouchers are supported and reviewed by officials with
the appropriate level of authority.

Management Comments. The ADCFO concurred but provided no details on
how he intends to execute the recommendation.

The Director, DFAS Indianapolis nonconcurred with the recommendation. The
Director stated that DFAS personnel clearly defined the source of data and the
reason for the adjustments in the JVs. The Director also stated that DFAS
personnel had requested that the DoD OIG provide documentation of the deficient
JVs. However, after numerous requests, the DoD OIG did not identify the
deficient JVs. Therefore, the Director could not make specific comments because
DFAS was unclear as to the specific JVs being addressed in the report.

The Director further stated the DoD OIG deemed the contract financing JVs as
unsupported, however, procedures and disclosures related to contract financing
JVs are based on cost and were in accordance with OUSD(C)/CFO guidance.
The Director also stated that, in relation to contract financing JVs, without



                                    17
reference of the specific JVs the auditors used in reaching their conclusions, we
are unable to evaluate the accuracy of the conclusions.

The Director also stated that DFAS reviewed and approved all JVs at the
appropriate levels of authority. The Director stated that the auditors adjudged
some substantial journal vouchers as improper because DFAS Indianapolis did
not review them prior to input. The Director also stated that DFAS Indianapolis

management does not believe that current practices for preparing, supporting, and
authorizing journal vouchers to make accounting adjustments negatively affect
balances reported in the DoD Agency-Wide financial statements.

Audit Response. Comments from the ADCFO are partially responsive. We
request that the USD(C)/CFO provide the date and details on how the office will
implement the procedures.

The Director, DFAS Indianapolis comments were nonresponsive. On May 7,
2007, we provided DFAS personnel with JV control numbers included in our
sample selection. On July 8 and 9, 2008, DFAS personnel visited our office and
then made copies of the documentation. DoD OIG personnel also shared some
proprietary information with DFAS personnel as a professional courtesy. Most of
this documentation we originally obtained from Departmental Accounting, which
should have been readily available to DFAS.

DFAS is required to maintain this documentation for 6 years and 3 months. As
discussed in the report, the information on or attached to the JVs was not
convincing to ensure that the adjustments were accurate, proper, and justified. In
addition, we discussed the adequacy of the supporting documentation with
Departmental Accounting throughout the audit and at the exit conference on
March 10, 2008, when we provided DFAS Indianapolis with a discussion draft of
the report.

DFAS Indianapolis personnel should not have problems identifying the contract
financing JVs because we provided the documentation. We originally obtained
the 101 JVs from Departmental Accounting. Based on the supporting
documentation provided, we were unable to determine whether Departmental
Accounting recorded the JV adjustments for the financing payments in
accordance with an USD(C)/CFO accounting policy. The issue discussed in the
finding was the lack of documentation. While the accounting policy is not GAAP
compliant, we recommended only that DFAS disclose the estimation
methodology in the financial statement notes.

We disagree with the Director’s statement that DFAS properly reviewed and
approved JV adjustments. As discussed in the finding, in some examples, the
Deputy Director reviewed and approved JVs after DFAS recorded the adjustment
and prepared the financial statements. The report discusses other instances of
improper delegations of review and approval of journalized adjustments. The
American Institute of Certified Public Accountants Professional Standards states
that “material misstatements of financial statements due to fraud often involve the
manipulation of the financial reporting process by recording inappropriate or
unauthorized journal entries.” For estimate-based JV adjustments, these


                                    18
standards stress the importance of adequate review and approval by appropriate
levels of authority.

Proper JV review and approval, as prescribed in the DoD FMR, is an important
component of internal control over financial reporting. The DoD FMR prescribes
specific approval authority levels by dollar amount thresholds to strengthen
internal control over JV adjustments. Proper JV review and approval may have

helped prevent or detect JVs contributing to material misstatement in the financial
statements. We request that the Director, DFAS Indianapolis reconsider his
position and provide comments in response to the final report.

       b. Implement procedures for Departmental Accounting supervisory
review of the journal voucher control log.

Management Comments. The ADCFO concurred, but did not provide details on
how the office will implement the procedures or the planned implementation date.

The Director, DFAS Indianapolis partially concurred and stated that DFAS
Indianapolis has procedures for Departmental Accounting supervisory review of
the JV control log. He stated that DFAS Indianapolis would update its processes
to require the signature of the reviewer and the date of review. He did not
provide the planned implementation date.

Audit Response. Comments from the ADCFO and the Director, DFAS
Indianapolis are partially responsive. We request that they provide
implementation details, including the dates.

      c. Discontinue the delegation of authority for journal voucher review
and approval to lower-level managers and supervisors.

Management Comments. The ADCFO nonconcurred. He stated that the
OUSD(C)/CFO approves of DFAS managers delegating authority for JV review
and approval in accordance with DoD FMR volume 6A, chapter 2.

The Director, DFAS Indianapolis also nonconcurred, stating that the DoD FMR
does not specifically prohibit the delegation of authority for journal voucher
review and approval.

Audit Response. Comments from the ADCFO and the Director, DFAS
Indianapolis are nonresponsive. DoD FMR volume 6A, chapter 2 does not
address delegation of authority for JV approvals. In fact, the DoD FMR
prescribes specific approval authority levels by dollar amount thresholds to
strengthen internal control over journalized adjustments. We request that the
USD(C)/CFO and the Director reconsider their positions and provide comments
in response to the final report.

      d. Make footnote disclosures on the DoD Agency-Wide financial
statements to explain estimates used to adjust abnormal balances.




                                    19
Management Comments. The ADCFO nonconcurred and stated that the
adjustments were not made to adjust abnormal balances, but rather to move
amounts from Federal accounts to nonfederal accounts for which DFAS had no
trading partner information.

The Director, DFAS Indianapolis also nonconcurred, stating that DFAS
Indianapolis does not use estimates to adjust abnormal balances, but rather forces
Federal accounts to agree with nonfederal account balances.

Audit Response. Comments from the ADCFO and the Director, DFAS
Indianapolis are nonresponsive. The ADCFO and Director’s comments describe
an adjustment to force amounts to agree. In addition, the explanation on the JVs
states: “This adjustment moves the abnormal Accounts Payable – Federal to
Accounts Payable – Public, but does not impact the overall accounts payable
balance for 2nd Quarter, FY 2007.” DFAS Indianapolis did not provide adequate
support for the JV adjustments. DFAS Indianapolis did not support the JVs by
either transactional analysis or an adequate estimation methodology. The
American Institute of Certified Public Accountants Professional Standards
requires proper disclosure of accounting estimates. These standards further state
that the presentation of financial statements should include adequate disclosures
of material matters; such as the basis of the amounts presented in the financial
statements. We request that the USD(C)/CFO and the Director reconsider their
positions and provide comments in response to the final report.




                                    20
Appendix A. Scope and Methodology
   We performed this performance audit from April 2007 through January 2008 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We evaluated the processes used by Defense Finance and Accounting Service
   (DFAS) Indianapolis for compiling and adjusting financial data for Other Defense
   Organizations (ODO) general funds. Specifically, we reviewed internal controls
   related to the financial statement compilation process and preparation. We tested
   the appropriateness of accounting adjustments made to the trial balance data. We
   obtained an understanding of the ODO general fund financial reporting process
   and the controls over journal entries and other adjustments. We also reviewed
   applicable laws, regulations, and U.S. generally accepted accounting principles
   (GAAP).

   For second quarter FY 2007, we reviewed the 263 entries recorded in the CFO
   Load, Reconciliation System (CLRS) journal voucher log (JV) to determine
   whether there were any inconsistencies between what had been logged, what had
   been vouched, and to determine whether there were adequate explanations for
   voided log entries. We reviewed the supporting documentation for 50 of the 263
   CLRS adjustments recorded in the JV logs and for 51 Defense Departmental
   Reporting System (DDRS) JVs selected from 258 DDRS adjustments. We also
   reviewed 17 fourth quarter of FY 2007 JV adjustments made to ODO general
   fund data to compile the FY 2007 DoD Agency-Wide Financial Statements. We
   reviewed the JVs to determine whether DFAS Indianapolis properly approved and
   supported the JVs in accordance with applicable regulations and GAAP.

   We were unable to review management’s self-assessments related to adjusting
   entries because the DFAS Indianapolis Departmental Reporting Directorate’s
   ODO Audited Financial Statements/Budget Execution Division did not provide
   the information needed in time.

   Review of Internal Controls. We identified a material internal control weakness
   for DFAS Indianapolis as defined by DoD Instruction 5010.40, “Managers’
   Internal Control Program Procedures,” January 4, 2006. Specifically, DFAS
   Indianapolis controls over the systems and processes for adjusting ODO financial
   data were insufficient. Implementing the recommendations will improve internal
   controls for making adjusting entries recording liabilities. A copy of the final
   report will be provided to the senior official responsible for management controls
   at DFAS Indianapolis.

   Use of Computer-Processed Data. We relied upon accounting adjustment data
   in the CLRS and DDRS. We compared the accounting adjustment data to the JVs




                                       21
to obtain reasonable assurance that the amounts shown on the JVs were properly
recorded. We did not identify any deficiencies in the computer-processed data for
adjusting entries.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the financial management high-risk area.




                                    22
Appendix B. Prior Audit Coverage
   During the last 7 years, the DoD OIG has issued several reports discussing the
   Other Defense Organizations financial data. Unrestricted DoD OIG reports can
   be accessed at www.dodig.mil/audit/reports.

   DoD IG Report No. D-2008-008, “Defense Finance and Accounting Service
   Columbus Processes for Consolidating and Compiling Other Defense
   Organizations Financial Data,” October 30, 2007

   DoD IG Report No. D-2006-107, “Defense Departmental Reporting System and
   Related Financial Statement Compilation Process Controls Placed in Operation
   and Tests of Operating Effectiveness for the Period October 1, 2004, through
   March 31, 2005,” August 18, 2006

   DoD IG Report No. D-2006-092, “Controls over Abnormal Balances in Financial
   Data Supporting Financial Statements for Other Defense Organizations,” June 8,
   2006

   DoD IG Report No. D-2006-008, “Report on Defense Departmental Reporting
   System and Related Financial Statement Compilation Process Controls Placed in
   Operation and Tests of Operating Effectiveness for the period October 1, 2004
   through March 31, 2005,” October 24, 2005

   DoD IG Report No. D-2005-102, “Defense Departmental Reporting System -
   Audited Financial Statements Report Map,” August 17, 2005

   DoD IG Report No. D-2004-118, “Army General Fund Controls Over Abnormal
   Balances For Field Accounting Activities,” September 28, 2004

   DoD IG Report No. D-2002-130, “Accounting and Reporting Processes at
   Defense Finance and Accounting Service San Antonio,” July 22, 2002

   DoD IG Report No. D-2002-0096, “Major Deficiencies in Financial Reporting for
   Other Defense Organizations-General Funds,” May 31, 2002

   DoD IG Report No. D-2002-041, “Financial Reporting for the Defense Logistics
   Agency-General Funds at Defense Finance and Accounting Service Columbus,”
   January 18, 2002

   DoD IG Report No. D-2002-0038, “Financial Reporting for the Other Defense
   Organizations-General Funds at the Defense Finance and Accounting Service
   San Antonio,” January 14, 2002




                                      23
Appendix C. Other Defense Organizations
Other Defense Organizations General Fund Compiled At DFAS Indianapolis Operations
     1.      American Forces Information Services
     2.      Building Maintenance Fund, Defense
     3.      Business Transformation Agency
     4.      Chemical Biological Defense Program
     5.      Civilian Military Program
     6.      Counter Intelligence Field Activity
     7.      Court of Appeals of the Armed Forces
     8.      Defense Acquisition University
     9.      Defense Advanced Research Projects Agency
    10.      Defense Information Systems Agency – General Fund
    11.      Defense Intelligence Agency
    12.      Defense Legal Services Agency
    13.      Defense Prisoner of War/Missing Persons Office
    14.      Defense Security Cooperation Agency
    15.      Defense Technology Security Agency
    16.      Defense Threat Reduction Agency
    17.      Director, Operational Test and Evaluation
    18.      DoD Component Level Accounts
    19.      DoD Education Activity
    20.      DoD Test Resource Management Center
    21.      Emergency Response Fund, Defense
    22.      Homeowners Assistance Fund, Defense
    23.      Iraqi Freedom Fund
    24.      Joint Chiefs of Staff
    25.      Military Housing Privatization Initiative
    26.      Missile Defense Agency
    27.      National Defense University
    28.      National Geospatial – Intelligence Agency
    29.      National Security Agency
    30.      Office of Economic Adjustment
    31.      Office of the Inspector General, DoD
    32.      Office of the Secretary of Defense (OSD)
    33.      Other “TI-97” funds provided to the Air Force by OSD
    34.      Other “TI-97” funds provided to the Army by OSD
    35.      Other “TI-97” funds provided to the Navy by OSD
    36.      Payments to the Military Retirement Fund
    37.      Pentagon Force Protection Agency
    38.      Pentagon Reservation Maintenance Revolving Fund
    39.      Service Medical Activity
    40.      TRICARE Management Activity
    41.      U.S. Special Operations Command
    42.      Washington Headquarters Services




                                        24
Appendix D. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          25
Office of the Under Secretary of Defense
(Comptroller) Comments




                       27
28
29
30
31
               Defense Finance and Accounting Service
               Comments
Final Report                                            Final Report
 Reference                                               Reference




                                     32
     Final Report
      Reference




     Redirected
     1.b.




33
     Final Report
      Reference




     Renumbered
     2.d.




34
